LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 3, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-915: UNICOLORS, INC. V. H&M HENNES & MAURITZ, LP, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on August 3,
2021, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondents:
RESPONDENTS:
Peter K. Stris
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
213-995-6800
pstris@stris.com
This service was effected by depositing three copies of the Brief for Petitioner
and Joint Appendix in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 3rd day of August 2021.

